OIG Investigative Reports, Five Plead Guilty Today in $500,000 Financial Aid Fraid Scheme.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
Monday,September 14, 2009
Office of the United States Attorney
District of Arizona
Public Affairs
SANDY RAYNOR
Telephone: (602) 514-7625
Cell: (602) 525-2681
FIVE PLEAD GUILTY TODAY IN $500,000 FINANCIAL AID FRAUD SCHEME
All 65 defendants have been located
PHOENIX - As of today, 64 of the 65 defendants charged in the 130-count indictment from
June 2009 have appeared in federal court to face charges that they were part of a scheme to defraud the
U.S. Government out of more than a half-million dollars in student loans. The final defendant is
currently in custody in another jurisdiction and is expected to appear in federal court in the near future.
Charges vary for each individual and include Conspiracy, Mail Fraud, Financial Aid Fraud and/or False
Statements in Connection with Financial Aid. A chart with defendant information, along with their
respective charges and status, is attached.
Eleven defendants are currently pending sentencing, including five who pleaded guilty today
to the misdemeanor charge of False Statements in Connection With Financial Aid. In addition, one
defendant has been sentenced and 11 additional defendants are scheduled to enter guilty pleas within
the next few weeks. The lead defendant charged in all 130 counts, Trenda Lynne Halton, 37, of Peoria,
Ariz., was arrested on June 24, 2009, and was released pending trial. Trial for all remaining defendants
is set for December 1, 2009, before U.S. District Judge Neil V. Wake.
The June 2009 indictment alleges that from July 4, 2006, through October 30, 2007, Halton
recruited individuals to act as straw students in order to apply for federal financial aid, in the form
of Stafford Loans and Pell Grants, with her assistance at Rio Salado Community College. The
applicants were neither active students at Rio Salado nor did they intend to become active students.
Halton worked with four of those charged to recruit additional individuals to fraudulently apply for,
and receive, student financial aid through Rio Salado. A total of 60 additional straw students were also
charged as a result of the scheme.
The indictment alleges that during the scheme Halton maintained a system of documents and
handwritten records that contained personal information for approximately 136 straw students and
potential straw students. The extensive database included items such as dates of birth, Social Security
numbers, drivers license numbers, fictitious and valid wage tax statements, tax returns, tax transcripts,
fictitious and valid high school diplomas and Rio Salado Financial Aid applications. Halton completed
and submitted Rio Salado admission and financial aid applications containing forged and false
statements for at least 64 financial aid applicants.
Halton charged a fee to straw students ranging from $500 to $1,500. She also accessed Rio
Salado online classes, assuming the identity of the various straw students, in order to generate records
of the straw students’ participation in online classes and cause Rio Salado to authorize financial aid
payments to the straw students. During the period of the conspiracy and scheme, Halton and her 64 codefendants
unlawfully caused federally insured loans and grants to be disbursed to unqualified straw
students totaling approximately $538,932.
A conviction for each count of Conspiracy or Financial Aid Fraud carries a maximum penalty
of five years in federal prison, a $250,000 fine or both. Each conviction for False Statements in
Connection With Financial Aid carries a maximum penalty of one year, $100,000 fine or both. Each
conviction for Mail Fraud carries a maximum penalty of 20 years, a $250,000 fine or both. In
determining an actual sentence, U.S. District Court Judge Neil V. Wake will consult the U.S.
Sentencing Guidelines, which provide appropriate sentencing ranges. The judge, however, is not bound
by those guidelines in determining a sentence.
An indictment is simply the method by which a person is charged with criminal activity and
raises no inference of guilt. An individual is presumed innocent until competent evidence is presented
to a jury that establishes guilt beyond a reasonable doubt.
The investigation preceding the indictment was conducted by the U.S. Postal Inspection
Service and the U.S. Department of Education, Office of Inspector General with assistance from the
Surprise Police Department. The prosecution is being handled by Frederick A. Battista and Charles W.
Galbraith, Assistant U.S. Attorneys, District of Arizona, Phoenix.
CASE NUMBER: CR-09-737-PHX-NVW
RELEASE NUMBER: 2009-292(Halton et al)
# # #
For more information on the U.S. Attorney’s Office, District of Arizona, visit http://www.usdoj.gov/usao/az/
Top
Printable view
Last Modified: 09/17/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov